No. 20A120

In the
Supreme Court of the United States
WENDY GISH, PATRICK SCALES, JAMES DEAN MOFFATT, AND BRENDA WOOD,
Applicants,
v.
GAVIN NEWSOM, in his official capacity as the Governor of California; XAVIER
BECERRA, in his official capacity as the Attorney General of California,
Respondents.
CERTIFICATE OF SERVICE
I, Ronald D. Coleman, counsel of record for Applicants Wendy Gish, Patrick Scales,
James Dean Moffatt, and Brenda Wood, hereby certify that on January 14, 2021, I
served the following Documents on counsel:



Reply Brief in Support of Emergency Application for a Writ of
Injunction; and
Supplemental Appendix to Reply Brief in Support of Emergency
Application for a Writ of Injunction

Todd Grabarsky
Lisa Plank
CAAG – Office of Attorney General
300 South Spring Street Suite 1702
Los Angeles, CA 90013
ATTORNEYS FOR DEFENDANTSAPPELLEES
GOVERNOR GAVIN NEWSOM
AND ATTORNEY GENERAL
XAVIER BECERRA
James Brown
Ronak Patel
Office of County Counsel
3960 Orange Street, Suite 500
Riverside, CA 92501

Attorneys for Defendants-Appellees
CAMERON KAISER, GEORGE
JOHNSON, CHAD BIANCO; KEVIN
JEFFRIES; KAREN SPIEGEL,
CHUCK WASHINGTON, V. MANUEL
PEREZ, and JEFF HEWITT
Deborah Fox
Margaret Rosequist
Matthew Nazareth
Meyers Nave Riback Silver and Wilson
707 Wilshire Blvd., 24th Floor
Los Angeles, CA 90017
Michelle Blakemore
Penelope Ann Alexander-Kelley
San Bernardino County Counsel
385 North Arrowhead Ave. 4th Floor
San Bernardino, CA 92415
Attorneys for Defendants- Appellees
DR. ERIN GUSTAFSON, SHERIFF
JOHN MCMAHON, SUPERVISOR
COL. PAUL COOK, SUPERVISOR
JANICE RUTHERFORD,
SUPERVISOR DAWN ROWE,
SUPERVISOR CURT HAGMAN,
AND SUPERVISOR JOE BACA, JR.
I further certify that all parties have been served in this matter,

Respectfully submitted,
___________________________
RONALD D. COLEMAN
Counsel of Record
DHILLON LAW GROUP, INC.
8 Hillside Avenue – Suite 103
Montclair, NJ 07042
(973) 298-1723
rcoleman@dhillonlaw.com

HARMEET DHILLON
MARK P. MEUSER
DHILLON LAW GROUP, INC.
177 Post Street, Suite 700
San Francisco, CA 94108
(415) 433-1700
harmeet@dhillonlaw.com
mmeuser@dhillonlaw.com
Counsel for Applicants, Wendy Gish, Patrick
Scales, James Dean Moffatt, and Brenda
Wood

